No. ____________

In the Supreme Court of the United States
Barnes v. Chase Home Finance, LLC, et al.
CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the document
contains 6,579 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on January 22, 2020.

Jon D. Pels
Counsel of Record
Maria Leonard Olsen
THE PELS LAW FIRM
4845 Rugby Avenue, Third Floor
Bethesda, Maryland 20814
(301) 986-5570
jpels@pelslaw.com
Counsel for Petitioner

